HHS/OIG, Audit - "Review of Alabamas Medicaid Upper-Payment-Limit
Calculations for Hospitals and Nursing Facilities," (A-04-03-02027)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Alabamas Medicaid Upper-Payment-Limit Calculations for Hospitals and Nursing
Facilities," (A-04-03-02027)
December 8, 2005
Complete Text of Report is available in PDF format (383 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether Alabama (1)
calculated the upper payment limit (UPL) for State and non-State government hospitals and for
non-State government nursing facilities in accordance with Federal regulations
and the approved State plan amendments and (2) properly included UPL payments in
the calculation of hospital-specific disproportionate share hospital (DSH) limits.  We found that for State fiscal
year (FY) 2003, Alabama generally calculated the State and non-State government
hospital outpatient UPLs in compliance with Federal regulations and its State
plan amendment.  However, Alabama did not comply with its State plan amendment
when calculating the State and non-State government hospital inpatient UPLs, nor
did it comply with the revised Federal regulations when calculating the
non-State government nursing facility UPL.  Also, Alabama did not include all hospital UPL payments in its calculation of
hospital-specific DSH limits.  The
actual DSH limits and associated overpayments cannot be computed until the UPL
findings in this report are resolved.  Thus, we are leaving this matter to the
State and CMS for resolution.
We recommended that
Alabama (1) refund to the Federal Government $25,746,634 in UPL
overpayments to State and non-State government facilities, (2) comply with the
approved State plan when calculating hospital inpatient UPLs for State and
non-State government facilities for periods subsequent to our audit period, (3)
remove the State facility from the non-State government nursing facility UPL
calculation for periods subsequent to our audit period, (4) work with CMS to
resolve potential DSH overpayments currently valued at $47,685,747, and (5)
include all UPL payments when calculating hospital-specific DSH limits for
periods subsequent to our audit period.
With respect to our second recommendation,
Alabama said that it did comply with its State plan amendment in the UPL
calculations for inpatient hospital services and that CMS had determined that
Alabamas UPL calculations were in compliance with the State plan.  With respect
to our fourth recommendation on resolving potential DSH overpayments, the State
replied that it had properly calculated the cost of uncompensated care and was
working with CMS on this issue.  The States response did not warrant any
revisions to the results of our review or to our recommendations.